                                                                             Report No. DODIG-2015-010



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              OCTOBER 28, 2014




                     Defense Logistics Agency
                     Did Not Fully Implement the
                     Business Enterprise Architecture
                     Procure‑to‑Pay Business Process
                     in the Enterprise Business System




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
      I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                           Mission
        Our mission is to provide independent, relevant, and timely oversight
        of the Department of Defense that supports the warfighter; promotes
        accountability, integrity, and efficiency; advises the Secretary of
                   Defense and Congress; and informs the public.



                                            Vision
        Our vision is to be a model oversight organization in the Federal
        Government by leading change, speaking truth, and promoting
        excellence—a diverse organization, working together as one
                 professional team, recognized as leaders in our field.




                                       Fraud, Waste & Abuse

                                       HOTLINE
                                       Department of Defense
                                       dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                               Results in Brief
                               Results in Brief: Defense Logistics Agency Did Not Fully
                               Implement the Business Enterprise Architecture Procure-to-Pay
                               Business Process in the Enterprise Business System


October 28, 2014                                Finding (cont’d)

Objective                                       although DLA has spent $2.5 billion on the EBS, DLA financial
                                                managers cannot rely on EBS trial balance data to prepare
We determined whether the Enterprise            financial statements. Until DLA financial managers correct
Business System (EBS) Program                   the underlying deficiencies that cause abnormal general
Management Office implemented the DoD           ledger balances within its unadjusted trial balances and fully
Business Enterprise Architecture (BEA)          implement BEA standards, there is an increased risk of not
Procure-to-Pay business process to properly     achieving audit readiness goals in FYs 2014 and 2017.
support the purchase of Defense Logistics
Agency (DLA) goods and services and
generate accurate and reliable financial        Recommendations
management information.                         We recommend the DCMO subject financial management
                                                systems, like EBS, to comprehensive assessments of BEA
Finding                                         requirements and conduct a more comprehensive business
                                                process re-engineering assessment of the Procure-to-Pay
The EBS Program Management Office did           phases affected by EBS and EProcurement. We recommend
not fully implement the DoD BEA Procure-        the Director, DLA, re-engineer the Procure-to-Pay business
to-Pay business process to properly support     process to eliminate abnormal account balances and align
the purchase of DLA goods and services          EBS functionality with BEA requirements. We recommend
and generate accurate and reliable financial    the EBS Program Management Officer prepare an integrated
management information. This occurred           schedule for completing corrective action plans and system
because the EBS Program Management Office:      change requests impacting the Procure-to-Pay business
                                                process and develop a compliance plan for implementing
   •	 placed higher priorities on ensuring
                                                BEA requirements.
      mission accomplishment rather than
      configuring EBS to comply with
      evolving BEA standards, and               Management Comments and
   •	 did not complete its re-engineering of    Our Response
      the Procure-to-Pay business process.
                                                Comments from the Assistant DCMO, responding for the
Additionally, this occurred because Office      DCMO, on Recommendations 3 and 4 and the response from
of the Deputy Chief Management Officer          the Director, DLA Information Operations, on Recommendation
(DCMO) managers did not establish               1.a and 1.b addressed all specifics of the recommendations,
stringent validation and certification          and no further comments are required. However, DLA
procedures for ensuring that program            partially addressed Recommendation 2. We request that
managers implemented and accurately             DLA provide additional comments by November 28, 2014.
reported BEA requirements. As a result,         Please see the Recommendations Table on the next page.




Visit us at www.dodig.mil


                                                                    DODIG-2015-010 (Project No. D2013-D000FI-0172.000) │ i
            Recommendations Table
                                                                     Recommendations       No Additional
                                        Management                   Requiring Comment   Comments Required
             Deputy Chief Management Officer                                             3, 4
             Director, Defense Logistics Agency                      2
             Enterprise Business System Program Management Officer                       1.a, 1.b

            Please provide comments by November 28, 2014.




ii │ DODIG-2015-010 (Project No. D2013-D000FI-0172.000)
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500


                                                                              October 28, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
  		 (COMPTROLLER)/ CHIEF FINANCIAL OFFICER, DOD
	              DEPUTY CHIEF MANAGEMENT OFFICER
	              DIRECTOR, DEFENSE LOGISTICS AGENCY

SUBJECT:	 Defense Logistics Agency Did Not Fully Implement the Business Enterprise
	         Architecture Procure-to-Pay Business Process in the Enterprise Business System
	         (Report No. DODIG-2015-010)

We are providing this report for your review and comment. The Enterprise Business System
Program Management Office did not implement the DoD Business Enterprise Architecture
Procure-to-Pay business process to properly support the purchase of Defense Logistics Agency
goods and services and generate accurate and reliable financial management information.
Although the Defense Logistics Agency has spent $2.5 billion on the Enterprise Business
System, financial managers cannot rely on the trial balance data to prepare financial
statements. Repeated attempts to obtain needed data contributed to delays in completing the
audit. The report is still relevant because much work still needs to be done to re-engineer the
system and align system functionality with Business Enterprise Architecture requirements.

We considered management comments on a draft of this report when preparing the final
report. DoD Directive 7650.3 requires that recommendations be resolved promptly.
Comments from the Director, Defense Logistics Agency Information Operations, responding
for the Enterprise Business System Program Management Officer, on Recommendations 1.a
and 1.b and the Assistant Deputy Chief Management Officer on Recommendations 3
and 4 addressed all specifics of the recommendations, and no further comments are
required. However, comments from the Director, Defense Logistics Agency Information
Operations, partially addressed Recommendation 2. We request additional comments on
Recommendation 2 by November 28, 2014.

Please send a PDF file containing your comments to audfmr@dodig.mil. Copies of your
comments must have the actual signature of the authorizing official for your organization.
We cannot accept the /Signed/ symbol in place of the actual signature. If you arrange to send
classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5945.




	                                              Lorin T. Venable, CPA
	                                              Assistant Inspector General
	                                              Financial Management and Reporting



                                                                                         DODIG-2015-010 │ iii
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background______________________________________________________________________________________1
                  Review of Internal Controls_____________________________________________________________________5

                  Finding. Enterprise Business System Did Not
                  Comply With the Business Enterprise Architecture
                  Procure-to-Pay Business Process_ ________________________________________6
                  Standard Financial Information Structure Requirements Not Yet Achieved_______________7
                  DoD Transaction Library Posting Logic Not Used Consistently_____________________________8
                  Enterprise Business System Did Not Follow All Regulatory Requirements______________ 10
                  System Changes and Additional Re-Engineering Needed__________________________________ 13
                  Incorrect Posting Logic and Lack of Re-Engineering Create Abnormal
                      Balances and Jeopardize Audit Readiness_ _____________________________________________ 17
                  Conclusion______________________________________________________________________________________ 19
                  Recommendations, Management Comments, and Our Response_ ________________________ 20

                  Appendixes
                  Appendix A. Scope and Methodology________________________________________________________ 23
                  	   Use of Computer-Processed Data________________________________________________________ 24
                  	   Use of Technical Assistance______________________________________________________________ 24
                  	   Prior Coverage_____________________________________________________________________________ 25
                  Appendix B. Business Enterprise Architecture Assertion Process Area Segments for
                     Procure-to-Pay____________________________________________________________________________ 26
                  Appendix C. System Change Requests to Correct Standard Financial Information
                     Structure Deficiencies____________________________________________________________________ 31
                  Appendix D. Defense Logistics Agency Business Enterprise Architecture Assertion to
                     the Deputy Chief Management Officer___________________________________________________ 32
                  Appendix E. Journal Vouchers Prepared by Defense Finance and Accounting Service
                     Columbus Personnel______________________________________________________________________ 34




iv │ DODIG-2015-010
Contents (cont’d)
Management Comments
Deputy Chief Management Officer___________________________________________________________ 37
Defense Logistics Agency_____________________________________________________________________ 39

Acronyms and Abbreviations______________________________________________ 42




                                                                                                   DODIG-2015-010 │ v
                                                                                                                                  Introduction




Introduction
Objective
Our objective was to determine whether the Enterprise Business System (EBS)
Program Management Office implemented the DoD Business Enterprise
Architecture (BEA) Procure-to-Pay business process to properly support the
purchase of Defense Logistics Agency (DLA) goods and services and generate
accurate and reliable financial management information. See Appendix A for a
discussion of the scope and methodology and prior coverage.


Background
The FY 2012 National Defense Authorization Act requires DoD to develop a
BEA establishing an information infrastructure to comply with all Federal
accounting, financial management, and financial reporting requirements. The
BEA infrastructure should:

         •	 routinely produce timely, accurate, and reliable financial information;
         •	 integrate budget, accounting, and program information and systems; and
         •	 provide a systematic measurement of performance.

The FY 2012 National Defense Authorization Act requires the establishment of an
Investment Review Board and an investment management process by the Deputy
Chief Management Officer (DCMO). It also requires that all covered Defense
Business Systems1 (DBSs) be assessed for compliance with the BEA before receiving
certification to obligate funding of greater than $1 million over the period of
the current Future–Years Defense Program from the Investment Review Board,
regardless of type of funding or whether any development or modernization
is planned. If a DBS is not implemented according to BEA, then it risks not
obtaining DBS funding approval from the Defense Business Council. Annually, DoD
managers issue an updated DoD BEA version defining the business transformation
priorities, the business capabilities required to support those priorities, and the
combinations of enterprise systems and initiatives that enable those capabilities.
DCMO officially delivered BEA 10.0 on February 14, 2013. BEA 10.0 contained
15 standard, integrated and optimized end-to-end business processes, including the
business processes for Procure-to-Pay. DoD Components are to align their business
portfolios to the end-to-end business processes to provide a comprehensive and
consistent approach to improving business operations.

	1	
      A DBS is an information system, other than a national security system, operated by, for, or on behalf of DoD. This
      includes financial systems, mixed systems, and financial data feeder systems used to support business activities,
      such as acquisition, financial management, logistics, strategic planning and budgeting, installations and environment,
      and human resource management. DLA established EBS through commercial-off-the-shelf software to manage the
      acquisition, financial management, logistics, strategic planning, and budgeting of the supply chain.



                                                                                                                               DODIG-2015-010 │ 1
Introduction



                 The BEA 10.0 Procure-to-Pay business process encompasses all business
                 functions necessary to obtain goods and services using procurement processes
                 and procedures. BEA 10.0 identified eight phases in the Procure-to-Pay business
                 process that pre-certification authorities use to assess DBS compliance. The Figure
                 below identifies the eight Procure-to-Pay phases.

                 Figure. The Eight Procure-to-Pay Phases


                                                                       Procure
                                                                         -to-
                                                                         Pay




                                                                               Perform
                       Create        Develop        Award       Administer                   Manage                         Perform
                                                                               Receipt,                      Manage
                      Purchase     Procurement   Procurement   Procurement                 Procurement                    Instrument
                                                                             Acceptance,                  Disbursements
                     Requisition     Strategy     Instrument    Instrument                  Entitlement                    Closeout
                                                                             and Return



                 Source: BEA Procure-to-Pay Model

                 BEA 10.0 also identified 140 unique Procure-to-Pay process area segments within
                 the eight phases. See Appendix B for the list of the BEA 10.0 Procure-to-Pay
                 process area segments. General ledger transactions related to the Procure-to-Pay
                 business process are used to populate the financial statements, to include the
                 Statement of Budgetary Resources.

                 DCMO is responsible for the Department’s BEA and other DoD products, services,
                 and publications designed to deliver efficient, effective, and agile business
                 operations that support and enable the warfighter. DCMO’s mission is to “lead
                 and enable end-to-end integration and improve business operations in support of
                 national security.” DCMO annually delivers the BEA to apply policies, procedures,
                 data standards, and system interfaces uniformly across the Department. The
                 DoD BEA helps DBS owners and program managers make informed decisions,
                 and it guides and constrains DBSs as required by the FY 2012 National Defense
                 Authorization Act.

                 DCMO established the Defense Business Council as DoD’s single Investment Review
                 Board on October 18, 2012. The Defense Business Council conducts portfolio
                 analysis and process integration in support of the review and certification of
                 covered DBS programs’ planning, design, acquisition, development, deployment,
                 operation, maintenance, modernization, and project cost benefits and risks. The
                 Defense Business Council reviews the pre-certification authority’s assessment of
                 the DBS for compliance with BEA.




2 │ DODIG-2015-010
                                                                                                                      Introduction



Standard Financial Information Structure
The DoD BEA requires all systems processing financial transactions to use the
DoD Standard Financial Information Structure (SFIS) for categorizing financial
information supporting DoD financial management and reporting functions. On
August 4, 2005, Under Secretary of Defense (Comptroller)/Chief Financial Officer,
DoD, personnel issued SFIS implementation policy that systems containing
financial information to have the ability to either capture or transmit SFIS data
or demonstrate crosswalking capability to the SFIS format. DoD 7000.14-R, “DoD
Financial Management Regulation” (DoD FMR), volume 1, chapter 4, “Standard
Financial Information Structure,” requires DoD activities to maintain their target
systems, and legacy systems that will interface with a target system, consistent
with SFIS requirements.

Laws, Regulations, and Polices
BEA 10.0 identified 383 laws, regulations, and policies mandated by various
offices within the Office of the Secretary of Defense that are required for the
15 end-to-end processes. Those requirements included Office of Management and
Budget Circulars, Federal Acquisition Regulations, DoD FMR, DoD Instructions and
Directives, Department of Treasury Financial Manuals, public laws, and policies
issued in memorandums and other issuances.

ACART Tool
On January 22, 2013, DCMO memorandum titled “Single Business Enterprise
Architecture Compliance Process and Tool” stated that all DBSs must use ACART
to assess compliance with BEA. ACART2 is an automated tool for assessing
and reporting system compliance against data standards, business rules, laws,
regulations, and policies defined in the DoD BEA, which includes SFIS. Annually,
the pre-certification authority for the DBS asserts BEA compliance to the Defense
Business Council. The memorandum also states that a DBS is not compliant if any
applicable BEA requirement is not met. For each system that is not compliant with
BEA, a compliance plan must be prepared. The compliance plan will include a
planned compliance date, identification of the overarching architecture and system
issue(s), and the estimated cost for achieving compliance.




	2	
      ACART is a trademarked product of Engineering, Management, and Integration, Incorporated, and used by DoD.




                                                                                                                   DODIG-2015-010 │ 3
Introduction



                 Defense Logistics Agency
                 DLA, DoD’s largest logistics combat support agency, provides worldwide logistics
                 support to the military services as well as several civilian agencies. In support
                 of the DLA mission, the DLA Information Operations Directorate provides
                 comprehensive and best practices technological support. DLA Information
                 Operations, which includes the EBS Program Management Office, is responsible for
                 ensuring cost-effective EBS implementation. The DLA pre-certification authority
                 for EBS is the Director, DLA Information Operations.

                 Corrective Action Plans and System Change Requests
                 In conjunction with its audit readiness activities, DLA management established
                 groups such as the Stewardship Committee, Business Cycle Teams, and Field
                 Command Teams, to identify weaknesses and to establish corrective action plans
                 necessary for EBS to become compliant with laws, regulations, and policies. If
                 deficiencies prevented DLA from being compliant with regulatory requirements,
                 DLA needed to change its business process, either by using a corrective action plan
                 or by implementing system changes. DLA managers created corrective action plans
                 to update, enhance, or change DLA business procedures. DLA managers stated
                 that a system change request could be associated with a corrective action, but a
                 corrective action did not always require a system change.

                 Enterprise Business System
                 In August 2000, DLA began developing its Enterprise Resource Planning (ERP)
                 system by initiating the Business System Modernization. In FY 2007, DLA officials
                 combined Business System Modernization, which included Order Fulfillment, Supply
                 and Demand Planning, Procurement, Technical Quality, and Financial capabilities,
                 with the Customer Service Management and Product Data Management initiatives
                 to develop the EBS core system. EBS became the ERP system solution supporting
                 DLA nonenergy commodity activities. DLA subsequently enhanced its EBS
                 capabilities by adding SAP software that supported DLA Enterprise Operational
                 Accounting, real property, and inventory management functions.

                 As part of the EBS suite, the EProcurement module provides DLA with an
                 integrated enterprise procurement solution for consumables, services, and depot-
                 level reparables. DLA began fielding the EProcurement module in November 2010
                 and completed fielding on January 27, 2014. In July 2014, DLA plans to complete
                 EBS deployment by implementing EBS Energy functionality to support new users.
                 Approximately 22,000 personnel use EBS to operate a $44 billion global enterprise
                 in 28 countries, managing nearly 5 million items in nine supply chains and
                 supporting more than 2,250 weapon systems. As of September 30, 2013, DLA has
                 spent $2.5 billion on EBS implementation.



4 │ DODIG-2015-010
                                                                                           Introduction



Defense Finance and Accounting Service
The Defense Finance and Accounting Service (DFAS) is responsible for directing,
approving, and performing DoD finance and accounting services. DLA used DFAS
Columbus, Ohio, to perform its accounting functions, which includes the processing,
reporting, and posting of DLA financial data to the Defense Departmental
Reporting System (DDRS). DFAS Columbus personnel use EBS financial data to
produce DLA financial statements, including the Statement of Budgetary Resources.
EBS financial data are also combined with data from other DoD activities to
produce the DoD Agency-wide financial statements. On October 13, 2011, the
Secretary of Defense directed the Department to advance the audit readiness target
date for the Statement of Budgetary Resources for General Fund activities from
FY 2017 to FY 2014. Additionally, he stated that the Department must continue
to work toward achieving auditability on the full set of financial statements in
FY 2017.


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
May 30, 2013, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating
as intended and to evaluate the effectiveness of the controls. We identified internal
control weaknesses in DLA’s implementation of BEA guidance. Specifically, the
EBS Program Management Office did not adhere to SFIS requirements, the DoD
Transaction Library, and other requirements associated with properly supporting
purchases of goods and services and generating accurate and reliable financial
management information. We will provide a copy of the report to the DLA senior
official responsible for internal controls.




                                                                                        DODIG-2015-010 │ 5
Finding




                 Finding
                 Enterprise Business System Did Not Comply With
                 the Business Enterprise Architecture Procure-to-Pay
                 Business Process
                 The EBS Program Management Office did not fully implement the DoD BEA
                 Procure-to-Pay business process to properly support the purchase of DLA goods
                 and services and generate accurate and reliable financial management information.
                 Specifically, EBS did not follow SFIS data standards, the DoD Transaction Library,
                 and other requirements associated with properly supporting purchases of goods
                 and services. This occurred because the EBS Program Management Office:

                          •	 placed higher priorities on ensuring mission accomplishment rather
                             than configuring EBS to comply with evolving BEA standards, and
                          •	 did not complete its re-engineering of the DLA Procure-to-Pay
                             business process.

                 Additionally, this occurred because DCMO managers did not establish stringent
                 validation and certification procedures for ensuring that program managers
                 implemented and accurately reported BEA requirements.

                 As a result, DLA financial managers could not rely on EBS trial balance data to
                 prepare financial statements. As of September 30, 2013, DLA activities reported
                 approximately $942.2 million in abnormal balances3 within the unadjusted trial
                 balances in general ledger accounts that support the Procure-to-Pay business
                 process. Additionally, DFAS Columbus personnel prepared 379 journal vouchers
                 related to the Procure-to-Pay business process for DLA to prepare financial
                 statements at fiscal yearend. Until DLA financial managers correct the underlying
                 problems that cause these abnormal balances and fully implement BEA standards,
                 there is an increased risk of not achieving audit readiness goals in FYs 2014
                 and 2017.

                 	3	
                       An abnormal balance is a general ledger account code carrying a balance opposite the normal balance (debit or credit)
                       prescribed by the U.S. Standard General Ledger Chart of Accounts.




6 │ DODIG-2015-010
                                                                                                                         Finding



Standard Financial Information Structure Requirements
Not Yet Achieved
DLA system managers did not implement all corrective actions necessary to
configure EBS to report U.S. Standard General Ledger financial data using
DoD SFIS data standards. Planned system changes affected the 15 end-to-end
BEA business processes, including Procure-to-Pay. The DoD BEA requires all
systems processing financial transactions to use SFIS for categorizing financial
information supporting DoD financial management and reporting functions.
DCMO personnel created the BEA requirements so that DoD activities would
apply policies, procedures, data standards, and system interfaces uniformly.
Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD, personnel
developed the SFIS implementation policy to provide DoD with a comprehensive
data structure supporting its budgeting, financial accounting, cost accounting,
performance measurements, and external reporting. Data standardization was
essential for achieving auditable financial statements and providing DoD managers
with the financial information needed to make effective day-to-day budget and
management decisions.

DoD IG Report No. DODIG-2013-057, “Enterprise Business System Was Not
Configured to Implement the U.S. Government Standard General Ledger at the
Transaction Level,” March 20, 2013, states that DLA did not properly implement
SFIS data standards and attributes, establish and update the DoD standard chart
of accounts, and generate trial balance data correctly for reporting to DDRS.
Recognizing that EBS did not record and report financial data in accordance with
SFIS data standards, DLA system managers created a corrective action plan that
included 12 system change requests. See Appendix C for the 12 system change
requests DLA system managers4 created to correct the SFIS deficiencies identified
in Report No. DODIG-2013-057. Although DLA system managers prepared a
corrective action plan to implement SFIS data standards within EBS, not all the
system changes were completed by June 2013, when DLA system managers, using
ACART, stated that all eight phases of EBS Procure-to-Pay business process had
implemented the BEA 10.0 requirements. See Appendix D for details on DLA’s
BEA assertion.




	4	
      DLA system managers include the EBS Program Management Office, Program Management Office staff, and DLA
      Information Operations (J6) managers.




                                                                                                                DODIG-2015-010 │ 7
Finding



                 Corrective Actions Needed to Meet Standard Financial
                 Information Structure Not Yet Complete
                 The DLA system managers completed system updates in September 2013,
                 December 2013, and February 2014. The final update, scheduled for May 2014,
                 included system changes BFI-13-032 and BFI-13-037. Both of these system changes
                 addressed the inability of EBS data to interface with DDRS for financial reporting.
                 Procure-to-Pay process transactions populate general ledger account codes that
                 affect DLA financial reporting. For example, DFAS Columbus personnel prepared
                 102 journal vouchers, valued at $6.8 billion, to enter the DLA financial data into
                 DDRS during September 2013 for the end-of-year financial statement preparation.
                 As of June 30, 2014, DLA personnel stated that they had completed two system
                 change requests, but they remain open pending other actions. Another system
                 change request (BFI-13-032) remains open until October 2014 to support a DLA,
                 DCMO, and DFAS review of the DDRS interface. 5 In addition, they stated that
                 another system change will be created to address SFIS compliancy exceptions for
                 trading partner attributes. Until DLA makes the needed EBS system changes and
                 an independent entity validates implementation of SFIS requirements within EBS,
                 DLA financial transactions, including those related to the Procure-to-Pay process,
                 may not be recorded correctly and would require extensive manual processing.


                 DoD Transaction Library Posting Logic Not
                 Used Consistently
                 The EBS Program Management Office did not consistently use the DoD Transaction
                 Library to record transactions within EBS. Specifically, DLA included 67 Procure-
                 to-Pay transactions as part of the EBS posting logic that were not included in the
                 DoD Transaction Library. DoD FMR, volume 1, chapter 7, “United States Standard
                 General Ledger,” paragraph 0704, “Applicability and Scope,” states that the U.S.
                 Standard General Ledger must be used in all DoD accounting systems for all
                 appropriations and funds. In addition, the regulation requires using the prescribed
                 general ledger accounts in the DoD Standard Chart of Accounts and the prescribed
                 transactions in the DoD Transaction Library. The DoD Transaction Library is
                 a decomposition of U.S. Standard General Ledger accounting transactions for
                 DoD and breaks down the generalized U.S. Standard General Ledger transaction
                 postings, containing multiple debits and credits, into appropriate pairings of debits
                 and credits of budgetary, proprietary, and memorandum accounts. In order to have
                 properly implemented BEA, DBSs were required to follow SFIS, which included


                 	5	
                       There were three system change requests not technically closed as of June 30, 2014. See Table C in Appendix C for the
                       system change requests to correct SFIS deficiencies.




8 │ DODIG-2015-010
                                                                                                                                          Finding



the DoD Transaction Library. Although EBS had the capability to perform the
transaction postings established within the DoD Transaction Library, DLA did not
always use the transactions to post Procure-to-Pay transactions.

Enterprise Business System Transactions Not Identified in DoD
Transaction Library
EBS posting logic did not consistently perform Procure-to-Pay
transaction postings as required in the DoD Transaction
                                                                  The EBS
Library. In 2007, DLA contracted with Accenture6 for EBS        posting logic
consulting services. In April 2013, Accenture documented       did not comply
the posting logic within EBS for all financial transactions     with the DoD
and indicated that the EBS posting logic had inconsistencies    Transaction
                                                                   Library.
when compared to the DoD Transaction Library that
affected Procure-to-Pay general ledger accounts. Specifically,
Accenture determined that the EBS posting logic did not comply
with the DoD Transaction Library, there were system configuration constraints,
and DLA maintained outdated job aids. Job aids are the DLA desk procedures used
for understanding and navigating EBS.

Accenture identified 111 Procure-to-Pay business events within EBS; however, the
posting logic provided by DLA for 67 of the 111 business events was not in the DoD
Transaction Library. Accenture also identified that the posting logic associated
with 58 of the 67 business events was not in the DoD Transaction Library, including
the “Payment – Negative Payable” transactions. For example, DLA personnel
created the nonstandard transaction, “Payment – Negative Payable,”7 that allowed
them to pay an invoice before obtaining a goods receipt and acceptance document.
The “Payment – Negative Payable” transactions caused abnormal account balances.
The DoD FMR, volume 4, chapter 9 “Accounts Payable” required an accounts
payable be recorded (credit balance) when ordered goods were received and
accepted. Payment of the invoice after the goods were accepted resulted in an
offset to the account, reducing the credit balance. The DoD Transaction Library
only listed transactions that follow the DoD FMR and account for the proper way
to match invoices by using a three-way 8 and two-way 9 matching process. The DoD
Transaction Library did not have a transaction for the nonstandard transactions,
such as “Payment – Negative Payable.” To clear the “Payment – Negative Payable”


	6	
    Accenture is the company that DLA awarded a contract (through March 2017) to provide business systems integration,
    systems engineering, and application management services in support of EBS.
	7	
    DLA defined a Negative Payable as any situation where an invoice has been paid but no receipt has been obtained but
    is expected.
	8	
    A three-way match occurs between the obligation, invoice, and receipt to create a ready-to-pay transaction.
	9	
    A two-way match occurs when only an obligation and invoice are available. Two-way matches are acceptable for Fast
    Pay transactions; however, the paying agency is still required to obtain the receipt within 30 days of paying the invoice.




                                                                                                                                 DODIG-2015-010 │ 9
Finding



                 transaction, DLA created an additional transaction not included in the DoD
                 Transaction Library and used one of the five “Create Goods Receipt After Payment”
                 transactions when the goods receipt and acceptance had been obtained. DLA
                 personnel stated that they primarily performed the “Payment – Negative Payable”
                 transaction when origin acceptance, organic manufacturing, or third party pay
                 offices (payments made outside of EBS) occurred. Although there were limited
                 scenarios when paying invoices before receipt or acceptance of goods may have
                 been acceptable, DLA had significant abnormal balances in general ledger account
                 code 2110.0200 (Accounts Payable). Specifically, as of September 30, 2013,
                 the balance in general ledger account code 2110.0200 was a debit balance of
                 approximately $337.7 million. The “Payment – Negative Payable” transaction was
                 not consistent with the DoD Transaction Library and resulted in abnormal balances
                 on the DLA unadjusted trial balances.

                 Actions Needed to Correct Enterprise Business System Posting
                 Logic Deficiencies Remain Incomplete
                 DLA acknowledged the EBS posting logic was inconsistent with the DoD
                 Transaction Library and identified corrective actions. As of May 2014, DLA
                 developed seven corrective action plans and four system changes to correct the
                 EBS posting logic. DLA indicated that corrective action plans would be complete by
                 September 30, 2014. However, some uncertainty remains because according to DLA
                 personnel, the corrective actions included conducting internal research, working
                 with DCMO and Financial Improvement and Audit Readiness personnel to develop
                 a strategy, and requesting a new DoD Transaction Code, if necessary. Until the EBS
                 Program Management Office completes all actions to ensure that EBS implements
                 BEA requirements and follows the DoD Transaction Library, DLA Procure-to-Pay
                 general ledger account codes will continue to contain abnormal balances, which
                 will place DLA’s audit readiness goals in jeopardy of not being met.


                 Enterprise Business System Did Not Follow All
                 Regulatory Requirements
                 The EBS Program Management Office did not implement all the BEA regulatory
                 requirements for the business functions necessary to obtain goods and services
                 using procurement processes and procedures (including procurement, entitlement,
                 and payment). Of the 383 laws, regulations, and policies mandated by various
                 offices in the Office of the Secretary of Defense that were associated with
                 the 15 end-to-end processes within DoD BEA 10.0, DLA identified 120 laws,
                 regulations, and policies that related to its end-to-end processes, which include




10 │ DODIG-2015-010
                                                                                                                                          Finding



the Procure‑to‑Pay business process. From August 2013 through April 2014, DLA
personnel created 129 corrective action plans and 25 system change requests
related to the Procure-to-Pay process to meet the BEA regulatory requirements.
As of April 25, 2014, DLA had not completed 51 corrective action plans and
16 system change requests.10 For example, DLA identified the following key
business functions within the Procure-to-Pay process that required corrective
actions: Material Receipt and Acceptance, Contract Closeout, and Government
Purchase Card Purchases.

Material Receipt and Acceptance
The EBS Program Management Office did not ensure that EBS processed supplier
invoices according to DoD FMR, volume 10, chapter 7, “Prompt Payment Act,” which
required a goods receipt and acceptance prior to issuing a vendor payment for
goods or services.11 In its FY 2013 Annual Statement of Assurance, DLA identified
Material Receipt and Acceptance as a material weakness. Specifically, DLA finance
personnel processed payments in EBS without first obtaining receipt of material
for customer direct purchase orders and delivery orders. To correct the material
weakness, DLA created a corrective action plan and three system change requests.

DLA personnel created the corrective action plan because they were not obtaining
timely goods receipt and acceptance documents and certification of services
provided in accordance with the Prompt Payment Act. If a goods receipt was not
posted within EBS, DLA Finance personnel were ultimately left “chasing” the goods
receipt after they had created a negative payable or unliquidated obligation. The
corrective action established accountable roles for the process to leverage the
knowledge of functional subject matter experts needed to record the required
information within EBS. EBS Program Management Office personnel stated the
corrective action plan was due to be complete by September 30, 2014. Until the
EBS Program Management Office implements the BEA requirements and follows
the Prompt Payment Act, DLA will continue to make improper payments and
DFAS Columbus personnel will need to correct the unadjusted trial balances and
reconcile negative payable amounts.



	10	
       On numerous occasions, we attempted to obtain data necessary to update dated information in the report. During our
       last inquiry in June 2014, we requested status information on the corrective action plans and system change requests
       related to the Procure-to-Pay business process, as well as other information related to events scheduled to occur in
       June 2014. DLA personnel did not provide us with the updated information we requested.
	11	
       According to the Federal Acquisition Regulation, Subpart 13.4, there are limited situations when a payment can be made
       before goods receipt and acceptance. The most common situation is Fast Pay. A Fast Pay can occur when individual
       purchase agreements do not exceed $30,000, title passes to the Government, the supplier agrees to replace, repair,
       or correct supplies not received at destination, damaged in-transit, or not conforming to purchase requirements.
       However, a system must be in place to ensure: (1) documentation of evidence of contractor performance under fast
       pay purchases; (2) timely feedback to the contracting officer in case of contractor deficiencies; and (3) identification of
       suppliers that have a current history of abusing Fast Pay.




                                                                                                                                DODIG-2015-010 │ 11
Finding



                 Contract Closeout
                 The EBS Program Management Office did not ensure that EBS met the Federal
                 Acquisition Regulation, Subpart 4.8 “Government Contract Files,” section 4.804
                 “Closeout of Contract Files” requirements. The regulation required that contract
                 files be closed out in a timely manner, which DLA identified was not happening.
                 To meet the requirement, the EBS Program Management Office created eight
                 corrective action plans and two system change requests. One of the eight
                 corrective action plans required a system change to ensure that all links established
                 during the award lifecycle, from purchase requisition origination to contract
                 file disposal, remain intact regardless of subsequent actions. According to DLA,
                 linking the business objects would provide traceable evidential matter from the
                                    originating requirement throughout contract closeout and fund
                                          liquidation, even in the case of termination or cancellation.
                         Numerous            DLA documentation showed that EBS contained more than
                          aged and            1 million open contract actions associated with numerous
                       unliquidated
                                               aged and unliquidated obligations that remained open
                        obligations
                      remained open            more than 7 years. Excessive undelivered orders indicate
                         more than            that an agency may not be effectively using allocated
                           7 years.          funds. DLA must validate the unliquidated obligations
                                          associated with undelivered orders before asserting on its
                                    financial statement line item balance in its Statement of Budgetary
                 Resources. DLA personnel stated the corrective action plan and associated system
                 changes would not be completed until September 30, 2014.

                 Government Purchase Card Purchases
                 The EBS Program Management Office did not ensure that EBS implemented the
                 requirements of DoD FMR, volume 3, chapter 8, “Standards for Recording and
                 Reviewing Commitments and Obligations.” The DoD FMR states:

                                   An obligation is a legally binding agreement or action that will
                                   result in outlays, immediately or in the future. Obligations shall
                                   be recorded in the official accounting records at the time a legal
                                   obligation has incurred, or as close to the incurrence as is feasible.
                                   In no instance shall obligations be recorded later than 10 calendar
                                   days following the day that an obligation is incurred.12 The office
                                   responsible for recording the obligation shall record the obligation
                                   in the official accounting record within 3 calendar days of receipt of
                                   such documentation, information, or data.

                 DLA identified deficiencies related to purchases made with a Government Purchase
                 Card, and DLA personnel created seven corrective action plans. For example, one

                 	12	
                        DoD FMR, volume 3, chapter 8, provides procedures for recording obligations not previously recorded.




12 │ DODIG-2015-010
                                                                                                                                     Finding



corrective action established a DLA-wide standardized process for tracking and
recording government purchase cards purchases through the official accounting
record. This included updating EBS with purchase requests and purchase orders
within a specified timeframe and performing a managerial review to ensure
accurate implementation.

DLA personnel certified the request for funds, attested
to the availability of funds, and validated the line of                    The
accounting by signing the document. However, they did               certification and
not update EBS, the official accounting record, until the         reservation of funds
                                                                     were not being
system interfaced with US Bank’s Access Online,13 after
                                                                   properly recorded
the close of the monthly billing cycle and certification                 in EBS.
of government purchase cardholder’s monthly statement.
As a result, the certification and reservation of funds were
not being properly recorded in EBS as required by DoD FMR,
volume 3, chapter 8. The timely and accurate recording of obligations facilitates
the disbursing officer’s ability to verify fund availability before authorizing a
payment and promptly paying the associated invoice.

The implementation dates of the corrective action plan and associated system
changes extended over a 1-year period ending on June 30, 2014. We requested
documentation related to the system changes in June 2014, but to date have not
received the data from DLA. Until the EBS Program Management Office implements
the BEA requirements and complies with DoD FMR, volume 3, chapter 8, DLA
personnel will continue to create obligations without recording an obligation in
the official accounting record at least 10 calendar days following the day that an
obligation incurred.


System Changes and Additional Re-Engineering Needed
DLA system managers did not implement the DoD BEA Procure-to-Pay business
process in EBS because DLA functional managers placed higher priorities on
ensuring mission accomplishment rather than configuring EBS to comply with
evolving BEA standards. In addition, the DLA functional managers followed
existing business practices rather than re-engineer their Procure-to‑Pay
business process. Although they recognized the need to make changes to
EBS and DLA business processes, DLA functional managers did not ensure the


	13	
       In accordance with the Federal Acquisition Regulation, Subpart 13.301, the government-wide commercial purchase
       charge card is authorized for use in making and/or paying for purchases of supplies, services, or construction. Under
       the General Services Administration SmartPay 2 master contract, banks provide commercial charge card and innovative
       payment solutions to General Services Administration SmartPay customers. US Bank is the financial institution used by
       DLA for the General Services Administration SmartPay 2 program. Under General Services Administration SmartPay 2,
       contractor banks provide charge cards to agency employees to make purchases on behalf of the agency.




                                                                                                                           DODIG-2015-010 │ 13
Finding



                 timely implementation of the numerous corrective action plans and system
                 change requests. Additionally, DCMO did not establish a stringent validation
                 and certification procedure to ensure that program managers implemented
                 BEA requirements.

                 Mission Given Higher Priority Than BEA Implementation
                 DLA functional managers placed higher priorities on ensuring mission
                 accomplishment rather than configuring the ERP system to comply with
                 evolving BEA requirements. In times of budget cuts and dwindling resources,
                 DLA functional managers had to prioritize which requirements would receive
                 additional resources. They believed giving priority to changes and enhancements
                 that supported the mission was the best way to use resources and meet their
                 requirements. With such a critical mission to maintain, DLA personnel stated
                 that DLA could not afford the time to shut down EBS to promptly address the
                 evolving BEA requirements, including those associated with the Procure-to-Pay
                 business process.

                 The EBS Program Management Office has made numerous system changes and
                 completed corrective action plans. However, they did not review outstanding
                 corrective action plans and system change requests to determine their impact on
                 each of the Procure-to-Pay business process phases or have an integrated schedule
                 that identified when each corrective action plan or system change request would
                 be accomplished. In addition, the EBS Program Management Office did not prepare
                 a compliance plan for DCMO. By not implementing BEA requirements into EBS,
                 DLA risks not meeting audit readiness goals, and DFAS Columbus personnel must
                 continue to manually correct the unadjusted trial balances. The DCMO requires a
                 compliance plan for each system that is not compliant with BEA.

                 Opportunities Exist for Additional Business Process
                 Re‑Engineering
                 The EBS Program Management Office has not completed the re-engineering
                 of the DLA Procure-to-Pay business process. DCMO defined business process
                 re‑engineering as a logical methodology for assessing process weaknesses,
                 identifying gaps, and implementing opportunities to streamline and improve
                 processes to create a solid foundation for success in changes to the full spectrum
                 of operations. According to the DCMO, business process re-engineering seeks to
                 ensure that the business processes supported by a DBS are as streamlined and
                 efficient as practicable. Additionally, business process re-engineering seeks to
                 eliminate or reduce the need to tailor commercial-off-the-shelf systems to meet
                 unique requirements or incorporate unique interfaces.




14 │ DODIG-2015-010
                                                                                                                                  Finding



DLA re-engineered some aspects of the Procure-to-Pay business process. For
example, DLA acquired the EProcurement module within EBS. EProcurement
provided an automated contract writing and administration tool in a single,
integrated, enterprise-wide, procurement solution that will replace three different
legacy systems by February 2015.14

DLA created 129 corrective action plans to improve the                   DLA
Procure-to-Pay business process. However, additional                 created 129
opportunities existed for business process re‑engineering.       corrective action
Although the DLA FY 2013 Annual Statement of Assurance            plans to improve
                                                                   the Procure-to-
identified Material Receipt and Acceptance as a material
                                                                    Pay business
weakness area, DLA has not yet changed its business                    process.
process. DLA finance personnel did not have the material
receipts necessary to perform the required three-way match
within EBS before making payments on invoices. By processing payments prior to
obtaining the goods receipt and acceptance, DLA personnel used transactions not
listed in the DoD Transaction Library that led to the creation of abnormal balances
in certain Procure-to-Pay general ledger accounts. For example, DLA created
8,629 negative payable transactions totaling $216.3 million during March 2014.

If DLA performed additional business process re-engineering on the material
receipt and acceptance area, then DLA could reduce the existence of abnormal
account balances in the DLA Procure-to-Pay general ledger accounts and the
number of journal vouchers required to correct the abnormal account balances.
Additionally, DLA would ensure that EBS meets the BEA requirement of compliance
with the Prompt Payment Act.

Deputy Chief Management Officer Validation and Certification
Procedures
DCMO managers did not establish stringent validation and certification procedures
for ensuring that program managers implemented and accurately reported
BEA requirements. In previously issued reports,15 the DoD Office of Inspector
General reported the need to establish more stringent validation and certification
procedures for ensuring implementation of BEA requirements, including SFIS and
the DoD Transaction Library.



	14	
       The three legacy systems that are being replaced by EProcurement are Procurement Automated Contract Evaluation,
       Defense Pre-Award Contract System, and Electronic Contract Folder. Additionally, EProcurement will replace the
       procurement function within the Base Operations Support System.
	15	
       Report No. DODIG-2013-057, “Enterprise Business System Was Not Configured to Implement the U.S. Government
       Standard General Ledger at the Transaction Level,” March 20, 2013 and Report No. DODIG-2013-070, “Defense Agencies
       Initiative Did Not Contain Source Required Data Needed to Produce Reliable Financial Statements,” April 19, 2013.




                                                                                                                        DODIG-2015-010 │ 15
Finding



                 In FY 2013, the DCMO required the pre-certification authority to provide
                 information for assessing BEA implementation. Based on the pre-certification
                 authority’s identification of pertinent BEA content, DCMO personnel reviewed the
                 portfolio information for completeness. They also reviewed any other pertinent
                 information provided by the DoD Component to understand any concerns that may
                 have surfaced through the Organizational Execution Plan analysis.16 However,
                 DCMO managers did not perform a detailed assessment of the data unless it was
                 one of the DBSs selected for review. The Defense Business Systems Investment
                 Management Process Guidance, April 8, 2013, states that the Defense Business
                 Council will select no more than three DBSs from a component’s portfolio to
                 review. DCMO managers did not select EBS for a detailed assessment of BEA
                 compliance. In addition, DCMO managers relied on the component to provide an
                 unbiased assessment. Therefore, the DCMO validation and certification procedures
                 provide limited assurance that the information provided by the pre-certification
                 authority portrays a true assessment.


                 Deputy Chief Management Officer Business Process Re-Engineering
                 Assessment
                 DCMO did not perform a complete business process re-engineering assessment of
                 the DLA Procure-to-Pay business process. On September 28, 2012, DCMO prepared
                 the “DoD Business Process Re-engineering Assessment Guidance,” that stated,
                 “effective in FY 2013 and then on an annual basis,” it would conduct:

                                    a visual assessment of the objective evidence validating that
                                    appropriate business process re-engineering efforts have been
                                    sufficiently undertaken based on the Business Process Re‑engineering
                                    standard to ensure that:

                                        •	 the business process supported by the DBS is (or will be) as
                                           streamlined and efficient as practicable, and

                                        •	 the need to tailor commercial-off-the-shelf systems to meet
                                           unique requirements or incorporate unique interfaces has been
                                           eliminated or reduced to the maximum extent practicable.

                 In June 2013, DCMO conducted business process re-engineering assessments of
                 several DBS systems, including DLA’s EBS and EProcurement systems.17 At the time
                 DLA personnel completed ACART assessment for BEA in June 2013, they identified
                 that both EBS and EProcurement supported the Procure-to-Pay business process.
                 (See Appendix D for our concerns with DLA’s BEA assertion.) However, for the
                 DCMO’s business process re-engineering assessment, DLA identified EProcurement

                 	16	
                        An Organizational Execution Plan represents a component’s effort for the identification, selection, control, and
                        evaluation of its portfolios of covered DBS investments used to support business operations.
                 	17	
                        Although EProcurement is a module of EBS, DCMO assessed each system separately due to their size.




16 │ DODIG-2015-010
                                                                                                                                           Finding



as the only system that performed Procure-to-Pay business process functions.
Therefore, when DCMO personnel conducted their business process re-engineering
review, they only reviewed the phases that EProcurement supported, which
meant DCMO only reviewed a portion of DLA’s Procure-to-Pay business process
for business process re-engineering. Table 1 identifies the Procure-to-Pay phases
reviewed by DCMO for business process re-engineering.

Table 1. Procure-to-Pay Phases Included in Business Process Re-Engineering Assessment

                                                                                                Included in Business
                 Procure-to-Pay Phase                           Supporting System              Process Re-Engineering
                                                                                                    Assessment
  Create Purchase Requisition                                             EBS                               No
  Develop Procurement Strategy                                     EProcurement                             Yes
  Award Procurement Instrument                                     EProcurement                             Yes
  Administer Procurement Instrument                                EProcurement                             Yes
  Perform Receipt, Acceptance, and Return                                 EBS                               No
  Manage Procurement Entitlement                                          EBS                               No
  Manage Disbursements                                                    EBS                               No
  Perform Instrument Closeout                                      EProcurement                             Yes


Although DCMO validated that both EProcurement and EBS performed sufficient
modernization and business process re-engineering in accordance with BEA, DLA’s
normal business process routinely led to abnormal account balances.


Incorrect Posting Logic and Lack of Re-Engineering
Create Abnormal Balances and Jeopardize
Audit Readiness
DLA financial managers could not rely on EBS trial balance data to prepare
its financial statements. As of September 30, 2013, DLA activities reported
approximately $942.2 million in abnormal balances within the general ledger
accounts18 associated with the Procure-to-Pay business process. In order to
prepare financial statements at fiscal yearend, DFAS Columbus personnel prepared
277 journal vouchers to correct a variety of errors with the Procure-to-Pay
business process, totaling approximately $95.6 billion.19


	18	
       We did not review all abnormal balances. We only reviewed abnormal balances in the general ledger accounts
       associated with the Procure-to-Pay business process.
	19	
       The debits on the journal vouchers totaled $95.6 billion, while the credits totaled $68.6 billion. When we reviewed the
       journal vouchers prepared by DFAS Columbus, we extracted only the Procure-to-Pay general ledger account amounts
       from the journal vouchers; therefore, the debit and credit amounts were sometimes not the same dollar value.




                                                                                                                                 DODIG-2015-010 │ 17
Finding



                 Unless DLA financial managers follow BEA requirements and re-engineer the
                 Procure-to-Pay business processes, DLA will continue to pay DFAS to correct
                 abnormal balances and correct posting logic problems. In addition, DLA risks not
                 achieving the audit readiness goals for FYs 2014 and 2017 if it does not implement
                 BEA requirements that will allow it to rely on EBS to produce accurate and reliable
                 financial information.

                 Defense Finance and Accounting Service Columbus Journal
                 Vouchers Needed to Correct Defense Logistics Agency
                 Financial Statements
                 DFAS Columbus personnel prepared 379 journal vouchers20 for the preparation
                 of the FY 2013 financial statements. Of the 379 journal vouchers, 277 journal
                 vouchers were needed to correct abnormal or incorrect balances caused by
                 business process errors, posting logic inconsistencies, system errors, and other
                 errors in the DLA financial data. Table 2 identifies the number and dollar value
                 of journal vouchers created by DFAS Columbus personnel in preparing the DLA
                 General Fund and Working Capital Fund financial statements that affected one or
                 more of the Procure-to-Pay general ledger accounts as of September 30, 2013.

                 Table 2. Journal Vouchers Prepared by DFAS Columbus for DLA (Dollar Values in Billions)

                                                          Number of
                                                          Correcting              Journal             Procure-to-Pay General Ledger
                                Category                   Journal             Voucher Value                  Account Value
                                                          Vouchers
                                                                                                     Debit Amount           Credit Amount
                      Business Process Errors                    85                 $16.3                   $0.9                 $15.9
                      Posting Logic Errors                       40                    0.9                    0.7                   0.4
                      System Errors                             126                   92.5                  91.1                   51.0
                      Other Errors                               26                    4.2                    2.9                   1.3
                        Total                                   277               $113.8                   $95.6                 $68.6


                 If DLA personnel perform business process re-engineering, correct the posting logic
                 errors and system errors within EBS, and implement BEA requirements, then DLA
                 could reduce the need for DFAS Columbus personnel to prepare correcting journal
                 vouchers. See Appendix E for a detailed discussion of the journal vouchers.




                 	20	
                        The 379 journal vouchers includes the 102 journal vouchers, valued at $6.8 billion, needed to enter the DLA financial
                        data into DDRS (discussed on page 6) that should no longer be needed once DLA system managers complete planned
                        actions to internally crosswalk EBS trial balance data to DoD Standard Chart of Accounts.




18 │ DODIG-2015-010
                                                                                                                              Finding



Defense Logistics Agency Could Reduce Cost of Accounting
Services from Defense Finance and Accounting Service
DLA could reduce the amount it pays to DFAS for accounting services. DFAS
Columbus charges DLA for a variety of services, including accounts payable,
accounts receivable, accounts maintenance and control (general ledger functions),
and departmental reporting. DFAS charged DLA an hourly rate of $75.30 in
FY 2013 for accounting services. Although DFAS Columbus personnel would likely
need to prepare some journal vouchers after DLA system managers implement
BEA requirements and re-engineer how they would implement the Procure‑to‑Pay
business process, the number of journal vouchers required could have been
reduced, thereby reducing the $46.3 million DLA paid DFAS in FY 2013 for
accounting services. 21

Defense Logistics Agency Audit Readiness Goals Are At Risk
DoD and DLA audit readiness goals depend on accurate and reliable DLA
financial data. While DLA managers have taken steps toward implementing SFIS
requirements and state that they have made audit readiness a priority with regard
to system corrections, DLA risks not achieving audit readiness goals unless it fully
implements BEA requirements. The business events within the Procure-to‑Pay
business process affect many of the general ledger accounts that are used to
populate the Statement of Budgetary Resources.

DLA personnel must implement BEA requirements so that they can rely on EBS
to produce accurate and reliable financial information. If DLA does not meet its
audit readiness goals, it will affect the Department’s ability achieve an auditable
Statement of Budgetary Resources for General Fund operations in FY 2014 and a
complete set of DoD financial statements in FY 2017.


Conclusion
From August 2013 through April 2014, DLA personnel made an effort to improve
DLA audit readiness and created 129 corrective action plans and 25 system change
requests to address SFIS, EBS posting logic, and other Procure-to-Pay related
deficiencies. While DLA has not completed many of the corrective actions, they
plan to complete the remaining corrective actions by September 30, 2014. Until
DLA corrects the deficiencies and DCMO validates EBS compliance with BEA
requirements and business process re-engineering, DLA cannot rely on EBS to
produce accurate and reliable financial information, which increases the risk that
DLA will not meet DoD audit readiness goals.


	21	
       DFAS Columbus personnel could not identify how much time they charged DLA for journal voucher preparation.




                                                                                                                    DODIG-2015-010 │ 19
Finding



                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation 1
                 We recommend that the Enterprise Business System Program Management
                 Officer:

                      a.	 Prepare an integrated schedule that identifies and prioritizes when
                          each corrective action plan and system change request impacting the
                          Procure-to-Pay business process will be completed.

                 Enterprise Business System Program Management Officer Comments
                 The Director, DLA Information Operations, responding for the EBS Program
                 Management Officer, agreed, stating that the Posting Logic Team was established
                 to assist the DLA Finance Process Owner with analysis and review of each
                 corrective action plan that impacts posting logic. The Posting Logic Team will
                 provide recommendations for posting logic changes to the appropriate Business
                 Cycle Team. Additionally, DLA implemented a new process for reviewing all system
                 changes to identify the potential impact to the posting logic. System changes that
                 affect posting logic will require review and approval by the Posting Logic Team.
                 This will ensure that sufficient testing is performed and documented with timely
                 incorporation into the posting logic documentation. The Director also stated that
                 DLA Executive Business Cycle Owners, EBS Program Management Officer, and
                 the Integrated Process Owner would jointly define the overall schedule working
                 prioritization with the overall enterprise, after considering the financial and audit
                 impact of these decisions.


                 Our Response
                 Comments from the Director, DLA, met the intent of the recommendation, and no
                 further comments are required.

                      b.	 Develop a compliance plan for implementing DoD Business Enterprise
                          Architecture requirements.

                 Enterprise Business System Program Management Officer Comments
                 The Director, DLA Information Operations, responding for the EBS Program
                 Management Officer, agreed, stating that DLA completed the compliance plan in
                 ACART. The Director stated that the June 28, 2014, DoD BEA 10.0 assessment
                 asserted compliance for the four Procure-to-Pay phases reported as “planned
                 compliance.” Each assertion was marked “as-is” with “EProcurement capability of
                 EBS” in the remarks field.




20 │ DODIG-2015-010
                                                                                              Finding



Our Response
Comments from the Director addressed all specifics of the recommendation, and no
further comments are required. The compliance plan should reflect the results of
the independent assessment of BEA requirements referenced in Recommendation 3.

Recommendation 2
We recommend that the Director, Defense Logistics Agency, direct system
and functional managers to re-engineer the Procure-to-Pay business
process to eliminate abnormal account balances and better align the
Enterprise Business System functionality with DoD Business Enterprise
Architecture requirements.


Director, Defense Logistics Agency, Comments
The Director, DLA Information Operations, responding for the Director, DLA,
agreed, stating that DLA understands why the Material Receipt and Acceptance
and the Negative Payables problem is occurring and its financial impact. However,
the solution options are not simple and will require both re-engineering of
processes and changes to the associated system. The Director also stated that a
system change or posting logic change would not resolve the underlying problem
of missing receipts. The DLA Posting Logic Team continues to work with both
DCMO and DFAS to resolve discrepancies with the posting logic documentation.
Additionally, the Director stated that SFIS documentation is being updated upon
finalization of the SFIS business rules and it will be incorporated into a new
standard operating procedure on the maintenance of financial master data and
structures within EBS.


Our Response
Comments from the Director partially addressed the specifics of the
recommendation. We agree that the existing Material Receipt and Acceptance
process is a major cause of Negative Payables and requires re-engineering of
processes and associated system changes. However, DLA did not state how it plans
to better align EBS functionality with DoD BEA requirements or address abnormal
account balances not associated with the Material Receipt and Acceptance process.
Therefore, we request additional comments on how DLA plans to align EBS
functionality with DoD BEA requirements and address abnormal account balances
not associated with the Material Receipt and Acceptance process.




                                                                                    DODIG-2015-010 │ 21
Finding



                 Recommendation 3
                 We recommend that the Deputy Chief Management Officer subject financial
                 management Defense Business Systems to regular and comprehensive
                 assessments of DoD Business Enterprise Architecture requirements and
                 business process re-engineering.


                 Deputy Chief Management Officer Comments
                 The Assistant DCMO, responding for the DCMO, agreed, stating that the DCMO,
                 in conjunction with the Deputy Chief Financial Officer, will implement a process
                 subjecting financial management DBSs to assessments of BEA requirements, such
                 as SFIS and the U.S. Standard General Ledger.


                 Our Response
                 Comments from the Assistant Deputy addressed all specifics of the
                 recommendation, and no further comments are required. We encourage the DCMO
                 to ensure that assessments cover BEA requirements beyond SFIS and the U.S.
                 Standard General Ledger.

                 Recommendation 4
                 We recommend that the Deputy Chief Management Officer conduct a
                 comprehensive business process re-engineering assessment of the Defense
                 Logistics Agency’s Procure-to-Pay phases affected by the Enterprise Business
                 System and EProcurement.


                 Deputy Chief Management Officer Comments
                 The Assistant DCMO, responding for the DCMO, agreed, stating that the DCMO will
                 ensure that a comprehensive business process re-engineering assessment of EBS
                 and EProcurement is conducted.


                 Our Response
                 Comments from the Assistant Deputy addressed all specifics of the
                 recommendation, and no further comments are required.




22 │ DODIG-2015-010
                                                                                         Appendixes




Appendix A
Scope and Methodology
We conducted this performance audit from May 2013 through August 2014 in
accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our finding and conclusion
based on our audit objectives. We believe that the evidence obtained provides
a reasonable basis for our finding and conclusions based on our audit objective.
However, repeated attempts to obtain needed data contributed to delays in
completing the audit.

We focused our review on how DLA system personnel implemented the
requirements of BEA 10.0 within EBS to perform the Procure-to-Pay Business
process and generate accurate and reliable financial information. We interviewed
personnel from the offices of the DCFO and DCMO and visited DLA Headquarters
in Fort Belvoir, Virginia, and DLA Land and Maritime, DLA Program Management
Office, and DFAS in Columbus, Ohio. We reviewed information submitted by the
DLA pre-certification authority in ACART as of June 30, 2013. Additionally, we
performed an analysis between the DoD Transaction Library and the EBS posting
logic to determine whether EBS had the ability to post transactions correctly. We
also reviewed the processes followed by DCMO personnel to ensure EBS complied
with BEA 10.0, including business process re-engineering assessments and related
actions and decisions.

We obtained the DLA FY 2013 EBS chart of accounts from DLA personnel and the
EBS unadjusted trial balance data from DFAS Columbus personnel for DLA General
Fund and Working Capital Fund business activity for FY 2013. We compared
the EBS chart of accounts to the DoD standard chart of accounts Procure-to-Pay
general ledger accounts to determine whether:

     •	 the EBS chart of accounts contained all the general ledger account codes
        required by the DoD standard chart of accounts to support DLA General
        Fund and Working Capital Fund business activity, and
     •	 EBS general ledger account codes were crosswalked to the correct
        DoD standard chart of accounts general ledger account codes for
        financial reporting.

We reviewed 239 unadjusted trial balances for September 2013 to identify the
Procure-to-Pay general ledger accounts that had an abnormal balance. We also
reviewed the FY 2013 journal vouchers prepared by DFAS Columbus Accounts




                                                                                    DODIG-2015-010 │ 23
Appendixes



                 Maintenance and Control and DFAS Columbus Departmental Accounting to prepare
                 DLA’s financial statements. We also obtained and reviewed the FY 2013 billing
                 rates for Accounting Services performed by DFAS and charged to DLA.

                 We reviewed some of the significant laws, regulations, and policies related to the
                 Procure-to-Pay business process listed in the BEA 10.0 requirements. Specifically,
                 we focused on the DoD FMR, volumes 1, 3, and 10 and the Federal Acquisition
                 Regulation, Subparts 4.8, 13.301, and 13.4. We also obtained corrective action
                 plans and system change requests designed to address previously identified audit
                 findings, material weaknesses, and other audit readiness challenges from DLA
                 functional personnel. In addition, we followed up on actions taken by DLA in
                 response to Report No. DODIG-2013-057. Specifically, we determined the status of
                 DLA actions taken to comply with SFIS requirements.


                 Use of Computer-Processed Data
                 To perform the audit, we used unadjusted EBS trial balance data compiled by
                 DFAS Columbus as of September 2013. To assess the reliability of the unadjusted
                 EBS trial balance data, we reviewed the unadjusted trial balances from EBS and
                 analyzed them for abnormal account balances in general ledger account codes
                 affected by the Procure-to-Pay business process. We compared the trial balances
                 against the FY 2013 DLA financial statements to determine whether the financial
                 information provided by EBS was suitable for use in preparing the DLA financial
                 statements. We also reviewed the monthly journal vouchers prepared by DFAS
                 Columbus personnel to identify the types of journal vouchers prepared and their
                 purpose. We used this information to identify which general ledger account codes
                 the journal vouchers affected and determine what caused the need for the journal
                 vouchers. Further, we used EBS posting logic data provided by DLA to determine
                 whether EBS implemented BEA 10.0 requirements and to determine whether the
                 posting logic was a cause of the abnormal account balances. We also reviewed
                 the support for the information entered into ACART related to the Procure-to-Pay
                 business process. The data reliability issues we identified are discussed in the
                 finding. We believe the computer‑processed data we used were sufficiently reliable
                 for reaching the audit conclusions and supporting the finding in this report.


                 Use of Technical Assistance
                 We did not use technical assistance during the audit.




24 │ DODIG-2015-010
                                                                                         Appendixes



Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the
Department of Defense Inspector General (DoD IG) have issued nine reports
discussing topics related to ERP systems and the Procure-to-Pay business process.
GAO reports can be accessed at http://www.gao.gov. Unrestricted DoD IG reports
can be accessed at http://www.dodig.mil/audit/reports.

GAO
Report No. GAO-13-557, “DoD Business Systems Modernization: Further Actions
Needed to Address Challenges and Improve Accountability,” May 17, 2013

Report No. GAO-10-808, “Financial Management Systems: Experience with Prior
Migration and Modernization Efforts Provides Lessons Learned for New Approach,”
September 8, 2010

DoD IG
Report No. DODIG-2013-111, “Status of Enterprise Resource Planning Systems’ Cost,
Schedule, and Management Actions Taken to Address Prior Recommendations,”
August 1, 2013

Report No. DODIG-2013-105, “Navy Did Not Develop Processes in the Navy
Enterprise Resource Planning System to Account for Military Equipment Assets,”
July 18, 2013

Report No. DODIG-2013-070, “Defense Agencies Initiative Did Not Contain Some
Required Data Needed to Produce Reliable Financial Statements,” April 19, 2013

Report No. DODIG-2013-057, “Enterprise Business System Was Not Configured to
Implement the U.S. Government Standard General Ledger at the Transaction Level,”
March 20, 2013

Report No. DODIG-2012-087, “Logistics Modernization Program System Procure-to-
Pay Process Did Not Correct Material Weaknesses,” May 29, 2012

Report No. DODIG-2012-066, “General Fund Enterprise Business System Did Not
Provide Required Financial Information,” March 26, 2012

Report No. DODIG-2012-051, “Navy Enterprise Resource Planning System Does Not
Comply With the Standard Financial Information Structure and U.S. Government
Standard General Ledger,” February 13, 2012




                                                                                    DODIG-2015-010 │ 25
Appendixes




                 Appendix B
                 Business Enterprise Architecture Assertion Process
                 Area Segments for Procure-to-Pay
                 BEA 10.0 identified 140 unique process area segments within the eight
                 Procure‑to‑Pay phases. Table B identifies the process area segments in each
                 phase of the Procure-to-Pay business process.

                 Table B. Procure-to-Pay Process Area Segments

                                  BEA Phase                            Process Area Segments
                                                            Collect and Analyze Requirement
                                                            Create Logistics Order
                          Create Purchase Requisition       Process Approved Requirement
                           (5 Process Area Segments)
                                                            Accept Purchase Request
                                                            Receive and Review Purchase Request
                                                            Collect and Analyze Spend Information
                                                            Conduct Market Research

                         Develop Procurement Strategy       Develop or Refine Sourcing Plan
                           (6 Process Area Segments)        Evaluate Accepted Purchase Request
                                                            Forecast Demand
                                                            Search Agreements
                                                            Accept Agreement with Government
                                                            Requester
                                                            Accept Signed Agreement
                                                            Acknowledge Order or Modification
                                                            Approve and Sign Intragovernmental
                                                            Agreement
                                                            Award Procurement Instrument or
                                                            Supplemental Procurement Instrument
                        Award Procurement Instrument        Collaboratively Develop or Modify Agreement
                         (28 Process Area Segments)         with Government Supplier
                                                            Conduct Solicitation and Source Selection for
                                                            Government Source
                                                            Conduct Source Check
                                                            Conduct Source Selection
                                                            Create Draft Request for Proposal
                                                            Determine Micropurchase Authority
                                                            Determine Micropurchase Sourcing




26 │ DODIG-2015-010
                                                                                            Appendixes



              BEA Phase                              Process Area Segments
                                          Determine Procurement Type
                                          Develop and Issue Request for Proposal
                                          Develop Intragovernmental Order
                                          Develop Procurement Instrument or
                                          Supplemental Procurement Instrument
                                          Evaluate Sourcing Plan
                                          Execute Micropurchase
                                          Finalize Request for Proposal

    Award Procurement Instrument          Negotiate Intragovernmental Order
     (28 Process Area Segments)           Negotiate with Single Source
                                          Prepare Pre-Solicitation Notice
                                          Receive and Review Proposals
                                          Receive Public Comments on Draft Request
                                          for Proposal
                                          Release Request for Proposal
                                          Review and Approve Request for Proposal
                                          Review Approved Intragovernmental Order
                                          Review Logistics Order
                                          Accumulate Cost Performance
                                          Administer Government Furnished Property
                                          Administer Payments
                                          Evaluate Awarded Procurement Instrument or
                                          Supplemental Procurement Instrument
  Administer Procurement Instrument       Initiate Procurement Change Request
      (9 Process Area Segments)
                                          Perform Contract Surveillance
                                          Perform Order Administration
                                          Process Evidence
                                          Review and Evaluate Contractor
                                          Business System
                                          Accept Other Goods and Services
                                          Acknowledge Goods Tendered or
                                          Services Rendered

Perform Receipt, Acceptance, and Return   Acknowledge Other Service Rendered
      (30 Process Area Segments)          Certify Discrepancies
                                          Conduct Inspection Walkthrough Examination
                                          and Verification of System Operation
                                          Confirm Proof of Training




                                                                                       DODIG-2015-010 │ 27
Appendixes



                                    BEA Phase                               Process Area Segments
                                                                Confirm Receipt of Acquisition Information
                                                                Confirm Receipt of Graphic Information
                                                                Confirm Receipt of Operation and
                                                                Maintenance Information
                                                                Confirm Receipt of Regulatory Compliance
                                                                Information
                                                                Confirm Receipt of Uniform Relocations
                                                                Act Information
                                                                Consolidate Discrepancies
                                                                Define and Record Discrepancies
                                                                Estimate Time and Cost of Corrective Actions
                                                                Evaluate Evidence of Goods Tendered and
                                                                Services Rendered
                                                                Execute Acceptance Transactions
                                                                Identify Accepting Officials
                      Perform Receipt, Acceptance, and Return   Identify Inspection and Verification
                            (30 Process Area Segments)          Participants
                                                                Inspect Intragovernmental Goods
                                                                Inspect Other Goods and Services
                                                                Notify Accepting Officials
                                                                Perform Quality Assurance on
                                                                Aggregated Information
                                                                Perform Receipt
                                                                Process Discrepancies for Other Goods
                                                                and Services
                                                                Reject Goods or Services
                                                                Schedule Closing or Signing with Provider
                                                                Schedule Inspections and Verifications
                                                                Update Shipping Information
                                                                Verify Commissioning Requirements
                                                                Verify Title Search
                                                                Apply Accounts Payable Offset
                                                                Apply Payment Instructions
                                                                Calculate Payment Adjustments
                         Manage Procurement Entitlement         Certify Monthly Managing Account Statement
                           (26 Process Area Segments)
                                                                Certify Purchase Card Transactions
                                                                Determine Procurement Type Entitlement
                                                                Generate Cancel Payment Request



28 │ DODIG-2015-010
                                                                                   Appendixes



          BEA Phase                          Process Area Segments
                                 Manage Scheduled Payments
                                 Match Acceptance and Obligating Document
                                 Match Billing Document and
                                 Intragovernmental Order
                                 Match Billing Document, Intragovernmental
                                 Order, and Evidence of Goods or Services
                                 Rendered
                                 Match Obligating Document, Acceptance and
                                 Payment Request
                                 Match Payment Request and Obligating
                                 Document
                                 Prepare Certified Business Partner Payment
                                 Process Additional Accounts Payable
Manage Procurement Entitlement   Information
  (26 Process Area Segments)
                                 Process Advice of Payment Request
                                 Process Cancel Payment
                                 Process Cancel Payment Request Returned
                                 Process Contract Clauses
                                 Process Pre Payment Information
                                 Process Refund
                                 Process Rejected Ready to Pay File
                                 Process Returned Payment Notice
                                 Process Stop Payment Notification
                                 Schedule Payment
                                 Summarize Transaction Detail
                                 Cancel Payment
                                 Convert United States Dollar Equivalent to
                                 Foreign Equivalent
                                 Create Check Print File
                                 Create Electronic Fund Transfer File
                                 Create Wire Transfer File
    Manage Disbursements         Disburse Cash
  (22 Process Area Segments)
                                 Distribute Payment
                                 Generate Disbursement In-Transit Pro Forma
                                 Entries
                                 Generate Disbursement Pro Forma Entries
                                 Generate Pre-Payment Pro Forma Entries
                                 Generate Pro Forma Entries for Adjustments
                                 to Paid Delivered Orders



                                                                              DODIG-2015-010 │ 29
Appendixes



                              BEA Phase                        Process Area Segments
                                                    Issue Cancel Payment Notice
                                                    Match Check Number to the Voucher
                                                    Obtain Payee’s Signature
                                                    Prepare Paid Disbursement Voucher
                                                    Prepare Schedule of Cancelled Checks
                        Manage Disbursements        Process Cash Payment
                      (22 Process Area Segments)
                                                    Process Intragovernmental Payment and
                                                    Collection
                                                    Reject Ready to Pay File Information
                                                    Return Cancel Payment Request
                                                    Validate Cancel Payment Request Information
                                                    Validate Ready to Pay File Information
                                                    Archive Order
                                                    Archive Procurement Instrument
                                                    Closeout Intragovernmental Order
                                                    Complete Administrative Closeout of
                                                    Procurement Instrument
                                                    Confirm Intragovernmental Order
                                                    Physically Complete
                                                    Confirm Procurement Instrument
                                                    Physically Complete
                                                    Determine Final Costs
                      Perform Instrument Closeout   Determine Final Intragovernmental Costs
                       (14 Process Area Segments)
                                                    Perform Administrative Closeout for FFP Other
                                                    Than Simplified Acquisition
                                                    Perform Administrative Closeout for Other
                                                    Procurement Instrument
                                                    Perform Administrative Closeout for
                                                    Procurement Instrument With Indirect Costs
                                                    Perform Administrative Closeout for
                                                    Supplemental Procurement Instruments
                                                    Process Intragovernmental Order
                                                    Closure Notice
                                                    Stage Contract or Order




30 │ DODIG-2015-010
                                                                                                  Appendixes




Appendix C
System Change Requests to Correct Standard Financial
Information Structure Deficiencies
DLA system managers created 12 system change requests to record and report
financial data in accordance with SFIS data standards. Table C identifies
pertinent information about the 12 system change requests identified by DLA
system managers.

Table C. System Change Requests Created to Correct SFIS Deficiencies

    System                Reason Why System Change                      System Change
    Change                   Request Was Created                        Request Status
    Request
                  Implement SAP changes made to meet
                  Treasury’s Government-wide Treasury
 BFI-13-025                                                        Closed–September 2013
                  Account Symbol Adjusted Trial Balance
                  System requirements.
                  Modify the EBS set-up on the use of Fund
 BFI-13-026                                                         Closed–December 2013
                  Classification requirements.
                  Correct errors with SFIS elements linked to
 BFI-13-027                                                        Closed–September 2013
                  budget execution transactions.
                  Remove errors with SFIS elements linked to
 BFI-13-028                                                         Closed–December 2013
                  the commitment item classification.
                  Correct errors with SFIS elements linked to
 BFI-13-029                                                        Closed–September 2013
                  functional area classification.
                  Eliminate errors with SFIS elements linked to
 BFI-13-030                                                        Closed–September 2013
                  the application of funds.
                  Correct errors with SFIS elements that are      Open–Awaiting Completion
 BFI-13-031       linked to Government-wide Treasury Account           of BFI-13-032
                  Symbol requirements.
                  Correct errors with getting SFIS compliant
 BFI-13-032       data to DDRS for proper preparation of DLA’s      Open–Completion Date
                                                                       October 2014*
                  financial statements.
 BFI-13-033       Eliminate errors with SFIS element table.        Closed–September 2013
                  Remove errors with SFIS trading partner
 BFI-13-034       information, within both on the Vendor            Closed–December 2013
                  Master and Customer Master tables.
                  Correct errors with the EBS General Ledger
 BFI-13-035       and implementation of the DoD standard           Closed–September 2013
                  chart of accounts.
                  Correct data reporting to support DLA’s            Delivered-May 2014.
 BFI-13-037       Financial Statements per DDRS.                       Not yet closed.
 *Completed June 27, 2014, but remains open to support a review of the DDRS interface.




                                                                                             DODIG-2015-010 │ 31
Appendixes




                 Appendix D
                 Defense Logistics Agency Business Enterprise
                 Architecture Assertion to the Deputy Chief
                 Management Officer
                 On June 20, 2013, DLA system managers stated that four of the eight phases
                 of the EBS Procure-to-Pay business process complied with BEA 10.0. DLA
                 system managers asserted they did not fully implement the other four phases
                 of the Procure-to-Pay business process. Technically, they reported “planned
                 compliance” in those four phases. Table D indicates, by Procure-to-Pay phase,
                 the DLA assertions on implementing BEA 10.0 on June 20, 2013, and the planned
                 corrective actions.

                 Table D. BEA Status Reported to DCMO

                          Procure-to-Pay Phase              DLA Assertion     Corrective Action Needed
                      Create Purchase Requisition    Compliant              None
                      Develop Procurement                                   Full Deployment of
                                                     Planned Compliance
                      Strategy                                              EProcurement
                      Award Procurement                                     Full Deployment of
                                                     Planned Compliance
                      Instrument                                            EProcurement
                      Administer Procurement                                Full Deployment of
                                                     Planned Compliance
                      Instrument                                            EProcurement
                      Perform Receipt, Acceptance,   Compliant              None
                      and Return
                      Manage Procurement             Compliant              None
                      Entitlement
                      Manage Disbursements           Compliant              None
                                                                            Full Deployment of
                      Perform Instrument Closeout    Planned Compliance     EProcurement and system
                                                                            change requests


                 Although DLA asserted to DCMO that EBS implemented the BEA requirements, none
                 of the eight Procure-to-Pay phases fully implemented the BEA requirements as of
                 June 20, 2013. We discuss in the finding the BEA requirements that DLA system
                 managers did not implement in EBS. Specifically, EBS did not comply with the SFIS
                 data structure, DoD Transaction Library, and other requirements associated with
                 properly supporting purchases of goods and services and generating accurate and
                 reliable financial management information. Therefore, DLA system managers did
                 not accurately report BEA 10.0 compliance in four phases.




32 │ DODIG-2015-010
                                                                                          Appendixes



DLA system managers misinterpreted DCMO guidance when reporting compliance
for the other Procure-to-Pay phases. Using the Architecture Compliance and
Reporting Tool, DLA system managers reported that these four phases required
the full deployment of EProcurement and a set of system changes before they
could be considered compliant with BEA 10.0. Therefore, DLA system managers
claimed that the four phases were “planned compliance.” However, according
to the BEA guidance, “planned compliance” was only allowed for DBSs that have
not reached initial operating capability. EBS reached initial operating capability
in January 2005 and EProcurement reached initial operating capability in
August 2012. Therefore, DLA should have stated that the four phases were not
compliant rather than “planned compliance.”




                                                                                     DODIG-2015-010 │ 33
Appendixes




                 Appendix E
                 Journal Vouchers Prepared by Defense Finance and
                 Accounting Service Columbus Personnel
                 DFAS Columbus personnel prepared 379 journal vouchers for the September 2013
                 accounting period necessary to enter EBS trial balance data into DDRS to prepare the
                 financial statements (102) and to correct business process errors (85), posting logic
                 inconsistencies (40), system errors (126), and other errors in the EBS data (26).

                 Correcting Crosswalk Errors
                 DFAS Columbus personnel prepared 102 journal vouchers to enter the DLA
                 financial data into DDRS for the end-of-year financial statement preparation.
                 DFAS Columbus personnel prepared the journal vouchers because DLA did not
                 implement BEA requirements, specifically SFIS, within EBS. Specifically, EBS
                 could not crosswalk trial balance data into DDRS using the DoD Standard Chart
                 of Accounts. Therefore, DFAS Columbus personnel prepared journal vouchers to
                 input EBS trial balance data into DDRS and prepare accurate and reliable financial
                 statements for DLA. As previously stated, BEA requires all systems processing
                 financial transactions to use SFIS for categorizing financial information supporting
                 DoD financial management and reporting functions. Furthermore, properly
                 implementing SFIS would allow DoD activities to reduce ERP customization,
                 eliminate the need for external crosswalking of account balances, and improve
                 comparability of DoD financial data.

                 Correcting Business Process Errors
                 DFAS Columbus personnel prepared 85 journal vouchers affecting the
                 Procure‑to‑Pay general ledger accounts to correct business processes that created
                 abnormal balances and undistributed collections and disbursements. To correct
                 the abnormal account balances in Procure-to-Pay general ledger accounts, DFAS
                 Columbus personnel prepared 44 journal vouchers. The DLA General Fund and
                 Working Capital Fund activities reported approximately $942.2 million, in abnormal
                 balances on the September 2013 Unadjusted Trial Balances for general ledger
                 accounts associated with the Procure-to-Pay business process. DFAS Columbus
                 personnel identified regular and reoccurring abnormal Procure‑to‑Pay general
                 ledger account balances caused by DLA normal business practices in month-end




34 │ DODIG-2015-010
                                                                                         Appendixes



EBS unadjusted trial balances. Additionally, DFAS Columbus prepared 41 journal
vouchers to correct financial data related to undistributed disbursements and
collections during September 2013 accounting period. DFAS Columbus personnel
stated the reasons for the journal vouchers were:

          to account for current year undistributed disbursements manually
          posted to the DLA General Fund financial statements. The adjustments
          are developed from the differences between disbursements and
          collections as stated on the activity’s trial balance and those stated
          on the cash management report. These entries are never processed
          to the actual trial balance and therefore the prior month’s JV requires
          no reversal. Each JV is an entity unto itself.


Correcting Enterprise Business System Posting Logic Errors
DFAS Columbus personnel prepared 40 journal vouchers to correct posting logic
errors. The posting logic errors occurred when the EBS posting logic contained
an incorrect general ledger account code or an incorrect or unspecified attribute
associated with that code. The two main reasons provided on the journal vouchers
prepared by DFAS Columbus personnel stated the vouchers were to reclassify:

     •	 U.S. Standard General Ledger account code 4350 to 4650 on the September
        FY 2013 EBS trial balance due to system erroneously reclassifying on
        closing year appropriations, and

     •	 U.S. Standard General Ledger account code 1010 to the correct attributes
        for canceling year accounts.


Correcting Enterprise Business System Errors
DFAS prepared 126 other journal vouchers because the EBS did not possess
the functionality needed to either interface with other systems or calculate the
accruals necessary to produce accurate trial balance information. For example,
DFAS prepared 39 of the 126 journal vouchers due to system deficiencies, which
existed within EBS that supported DLA General Fund entities. DFAS Columbus
personnel adjusted the general ledger account balances to quarterly budget
execution reports where there was relationship between budgetary data and
proprietary general ledger accounts. DFAS Columbus personnel performed
this adjustment to bring the proprietary general ledger accounts (current year
transactions) into agreement with the status data from the Report on Budget
Execution (SF 133). DFAS based this adjustment on DLA’s determination that the
proprietary data were more reliable.




                                                                                    DODIG-2015-010 │ 35
Appendixes



                 Other Journal Vouchers Prepared by Defense Finance and
                 Accounting Service
                 DFAS Columbus personnel prepared 26 additional journal vouchers that we could
                 not attribute to either the business process, posting logic, DDRS, or system error
                 problem. After DLA implements BEA requirements properly, DFAS Columbus
                 personnel will continue to prepare some journal vouchers. Listed below are two
                 examples of the journal vouchers that will still need to be prepared by DFAS
                 Columbus personnel.

                      •	 Journal vouchers that adjust agency level reports to reflect cash entries
                         for the reporting month that became available subsequent to the closing
                         of the Business System Modernization (Fuels Automated System)
                         Tria Balance.
                      •	 Journal vouchers that remove anticipated authority for fiscal
                         yearend reporting, as required by Office of Management and
                         Budget Circular No. A-11 and outlined in the U.S. Standard General
                         Ledger, Treasury Financial Manual.




36 │ DODIG-2015-010
                                  Management Comments




Management Comments
Deputy Chief Management Officer




                                        DODIG-2015-010 │ 37
Management Comments



                 Deputy Chief Management Officer (cont’d)




38 │ DODIG-2015-010
                           Management Comments



Defense Logistics Agency




                                 DODIG-2015-010 │ 39
Management Comments



                 Defense Logistics Agency (cont’d)




40 │ DODIG-2015-010
                                    Management Comments



Defense Logistics Agency (cont’d)




                                          DODIG-2015-010 │ 41
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                          BEA Business Enterprise Architecture
                          DBS Defense Business System
                        DCMO Deputy Chief Management Officer
                         DDRS Defense Departmental Reporting System
                         DFAS Defense Finance and Accounting Service
                          DLA Defense Logistics Agency
                      DoD FMR DoD Financial Management Regulation
                          EBS Enterprise Business System
                          ERP Enterprise Resource Planning
                          SFIS Standard Financial Information Structure




42 │ DODIG-2015-010
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
